TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         Accountability Over Volunteer
                        Income Tax Assistance Program
                      Computers Continues to Be a Problem



                                      September 25, 2006

                              Reference Number: 2006-40-172




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 25, 2006


 MEMORANDUM FOR CHIEF INFORMATION OFFICER
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Accountability Over Volunteer Income Tax
                             Assistance Program Computers Continues to Be a Problem
                             (Audit #200640030)

 This report presents the results of our review to assess whether computers used in the
 Volunteer Income Tax Assistance (VITA) Program1 are properly accounted for and controlled.
 In an effort to promote electronic filing (e-filing), the Internal Revenue Service (IRS) provides
 computers2 to enable VITA Program sites to offer taxpayers the option of e-filing their tax
 returns. These computers are loaded with the tax preparation software necessary to e-file a tax
 return with the IRS. During Fiscal Year 2006, VITA Program sites were involved in the
 preparation of over 2 million tax returns, with about 1.9 million being e-filed.

 Impact on the Taxpayer
 In a prior Treasury Inspector General for Tax Administration report dated August 2002,3 we
 identified concerns that the IRS did not have adequate internal controls and accountability over
 the computers it provides to volunteers. We again identified that key controls designed by the
 IRS to assist in accounting for computers are not being consistently followed. Taxpayer data are
 at risk of unauthorized disclosure or misuse as a result of the IRS’ inability to accurately account
 for VITA Program computers used in the preparation and transmission of electronic tax returns.



 1
   For the purposes of this report, the VITA Program includes the Tax Counseling for the Elderly Program.
 2
   An extract dated February 2006 identified approximately 11,000 computers were assigned to volunteers.
 3
   Computers Used to Provide Free Tax Help and That Contain Taxpayer Information Cannot Be Accounted For
 (Reference Number 2002-40-144, dated August 2002).
                         Accountability Over Volunteer Income Tax Assistance
                            Program Computers Continues to Be a Problem




Synopsis
In our prior report, we stated the IRS could not physically account for computers provided to
VITA Program volunteers. This happened because the IRS did not consistently conduct the
                                  required annual certification of the Information Technology and
 Taxpayer data are at risk of     Asset Management System (ITAMS),4 immediately record
  unauthorized disclosure or      receipt of new computers on the ITAMS, and update inventory
   misuse as a result of the
  IRS’ inability to accurately
                                  records when equipment was delivered. Again, key controls
  account for VITA Program        designed by the IRS to assist in accounting for computers are
          computers.              not being consistently followed. During this review, much of
                                  the information provided to support the accounting for VITA
Program computers was inconsistent and changed throughout the course of the audit. The issues
detailed below are similar to those identified and reported in our prior review.
•   The IRS accounted for 97 percent (191 of 197) of the computers sampled; however, repeated
    attempts were necessary to locate the computers.
•   During the period October 2003 to February 2006, Modernization and Information
    Technology Services organization employees changed the ITAMS name data field for
    7,150 computers5 to reflect these computers as being in the VITA Program. IRS
    management stated the ITAMS name data field was changed in an attempt to clean up
    inventory.
•   The IRS did not ensure required procedures were followed when disposing of computers on
    the ITAMS. The Reports of Survey (Form 1933)6 used to document the disposal of assets
    did not contain proper authorizations, details of the specific actions taken to locate the
    computers prior to removing them as lost, or the
    required statement on whether taxpayer data were
                                                                  Documentation was not
    at risk.                                                 provided to support inclusion of
                                                                     VITA Program computers in the
We will be referring information relative to the above
                                                                        IRS’ annual certifications.
ITAMS transactions to our Office of Investigations.                  These computers were also not
Additionally, the IRS was unable to provide                            included in the Government
documentation to demonstrate that the VITA Program                    Accountability Office’s annual
computers have been consistently included in the IRS’                    audit of the IRS’ financial
                                                                                statements.
annual certification of its computer inventory. IRS


4
  The ITAMS is the IRS’ authoritative record for asset control, where each piece of equipment is tracked from
procurement to disposal.
5
  Computers were listed on the ITAMS under the category of retired asset and were not reflected in active VITA
Program computer inventory totals.
6
  See Appendix IV.
                                                                                                                 2
                         Accountability Over Volunteer Income Tax Assistance
                            Program Computers Continues to Be a Problem



management initially stated the VITA Program computers were not included in the required
annual certifications. After we completed audit testing and discussed the results with IRS
officials, Modernization and Information Technology Services organization management
provided a memorandum indicating the computers located at the Computer Depot7 were included
in the Fiscal Year 2004 Annual Certification. They believe a certification of the Computer
Depot inventory was completed again in Fiscal Year 2005 but could not provide the required
memorandum supporting their claim. The VITA Program computers were also not included in
the Government Accountability Office Fiscal Years 2003 through 2005 annual audits of the IRS’
financial statements.
The IRS stated it plans to take actions to address concerns raised during our review. These
include certifying the VITA Program computer inventory beginning in Fiscal Year 2006,
developing guidelines outlining responsibilities of the Stakeholder Partnerships, Education, and
Communication (SPEC) and the End User Equipment and Services functions, and monitoring
and limiting the ability to change the ITAMS name data field.

Recommendations
The Chief Information Officer and the Commissioner, Wage and Investment Division, should
(1) perform a physical inventory and reconciliation of computers listed on the SPEC Taxpayer
Assistance Reporting System (STARS)8 to computers listed on the ITAMS and ensure VITA
Program computers are included in the required annual certification of the ITAMS, (2) integrate
the ITAMS and STARS to link the information between the two and ensure all VITA Program
computers are properly and efficiently controlled, (3) develop guidelines outlining the
responsibilities of the SPEC and End User Equipment and Services functions pertaining to the
control and accountability of VITA Program computers, and (4) ensure proper authorization and
physical verification of computers are obtained prior to reassigning computers on the ITAMS
and ensure required procedures are followed when disposing of computers.

Response
The IRS agreed with our recommendations and has taken or will take the following actions:
    •   The SPEC function will perform a physical inventory and reconciliation of computers on
        the STARS. The End User Equipment and Services function will ensure VITA Program
        computers are included in the required annual certification of the ITAMS.


7
  The Computer Depot is a centralized location that receives computers for the VITA Program, prepares them for
use by loading the operating system and tax preparation software, ships them to volunteers, and stores them when
they are not in use.
8
  The STARS is a database that resides in a network environment used to record VITA Program partner information.
                                                                                                              3
                     Accountability Over Volunteer Income Tax Assistance
                        Program Computers Continues to Be a Problem



   •   The IRS will modify the ITAMS and STARS to enable linking with each other, to
       improve the control over computers used in the VITA Program.
   •   On May 19, 2006, the End User Equipment and Services and SPEC functions signed a
       Memorandum of Understanding outlining the roles and responsibilities for the SPEC
       function, the Computer Depot, and the loan of equipment to VITA Program partners.
   •   The IRS will reinforce guidelines already in place with its employees responsible for
       inventory to ensure they follow the required procedures for reassigning or disposing of
       VITA Program computers.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                 4
                              Accountability Over Volunteer Income Tax Assistance
                                 Program Computers Continues to Be a Problem




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Procedures Are Not Adequate to Ensure Volunteer Income Tax
          Assistance Program Computers Are Properly Controlled ............................Page 4
                    Recommendations 1 through 4:.........................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Report of Survey ..................................................................Page 18
          Appendix V – Management’s Response to the Draft Report .......................Page 19
           Accountability Over Volunteer Income Tax Assistance
              Program Computers Continues to Be a Problem




                      Abbreviations

AWSS              Agency-Wide Shared Services
e-filing          Electronic Filing
EUES              End User Equipment and Services
GAO               Government Accountability Office
IRS               Internal Revenue Service
ITAMS             Information Technology and Asset Management System
MITS              Modernization and Information Technology Services
SPEC              Stakeholder Partnerships, Education, and Communication
STARS             SPEC Taxpayer Assistance Reporting System
TIGTA             Treasury Inspector General for Tax Administration
VITA              Volunteer Income Tax Assistance
                         Accountability Over Volunteer Income Tax Assistance
                            Program Computers Continues to Be a Problem




                                           Background

The Internal Revenue Service (IRS) Volunteer Income Tax Assistance (VITA) Program1
provides free tax help to people for whom professional assistance may be too expensive. The
IRS partners with the military, community-based organizations, and the AARP2 to assist
individuals with the preparation of basic income tax returns.3 Particularly, it assists those who
have low incomes or disabilities or are non-English speaking, elderly, or have other special
needs. Oversight of the VITA Program is the responsibility of the Stakeholder Partnerships,
Education, and Communication (SPEC) function, located in the IRS Wage and Investment
Division.
In an effort to promote electronic filing (e-filing), the IRS provides computers4 to enable VITA
Program sites to offer taxpayers the option of e-filing their tax returns. These computers are
loaded with the tax preparation software necessary to e-file a tax return with the IRS. During
Fiscal Year 2006, VITA Program sites were involved in the preparation of over 2 million tax
returns, with about 1.9 million being e-filed.
In a prior Treasury Inspector General for Tax Administration (TIGTA) report dated
August 2002,5 we identified concerns that the IRS did not have adequate internal controls and
accountability over the computers it provides to
volunteers. The IRS could not physically account for                A prior TIGTA review
computers provided to VITA Program volunteers. This              identified the IRS does not
happened because the IRS did not consistently perform the          have adequate internal
required annual certification of the Information                 controls  and accountability
                                                                     over  VITA Program
Technology and Asset Management System (ITAMS),6                          computers.
immediately record receipt of new computers on the
ITAMS, and update inventory records when equipment
was delivered. In addition, several factors contributed to the inadequate internal controls and
accountability over computer equipment. These factors included a lack of SPEC function
management oversight and no physical verification and/or reconciliation to determine the


1
  For the purposes of this report, the VITA Program includes the Tax Counseling for the Elderly Program.
2
  The AARP was formerly known as the American Association of Retired Persons.
3
  Basic income tax returns include the U.S. Individual Income Tax Return (Forms 1040 and 1040A) and the Income
Tax Return for Single and Joint Filers With No Dependents (Form 1040EZ).
4
  An extract dated February 2006 identified approximately 11,000 computers were assigned to volunteers.
5
  Computers Used to Provide Free Tax Help and That Contain Taxpayer Information Cannot Be Accounted For
(Reference Number 2002-40-144, dated August 2002).
6
  The ITAMS system is the IRS’ authoritative record for asset control, where each piece of equipment is tracked
from procurement to disposal.
                                                                                                        Page 1
                             Accountability Over Volunteer Income Tax Assistance
                                Program Computers Continues to Be a Problem



volume and location of computers transferred when the SPEC function was established. We
recommended the IRS perform a physical inventory of all computers included in the VITA
Program, develop procedures to ensure computer equipment obtained from external agencies is
immediately added to the inventory records, and develop procedures to ensure taxpayer e-file
data are removed from volunteer computers.
Management agreed with our recommendations. The IRS stated that it instructed field
employees to complete an inventory assessment and validate equipment used in the VITA
Program and to suspend the acquisition of equipment from external sources. Management also
stated that they have instructed Territory offices7 to delete taxpayer data from VITA Program
computers. The IRS advised us that additional processes have been put in place to protect
taxpayer data, such as adding password protection at the operating system level and using a “disk
wipe” program that deletes all programs, including taxpayer data, from the hard drive. The IRS
stated that it has also created a property loan agreement to specifically address how the
equipment can or cannot be used and is addressing the addition of software to the equipment.
Finally, the IRS stated that it developed a database to accurately account for the location of the
computer inventory to supplement the existing database, ITAMS, which could not accommodate
all the inventory needs for this Program.
Accountability for VITA Program computers is a responsibility shared between the
SPEC function and the End User Equipment and Services (EUES) function, located in the IRS
Modernization and Information Technology Services (MITS) organization. The MITS
organization is responsible for the accounting and recording of all computers and technology
equipment. The SPEC function is responsible for assigning and determining the placement of
the computers with volunteers and its partners, maintaining the related documentation on the
assignments, and controlling the computers and assignments on the SPEC Taxpayer Assistance
Reporting System (STARS).
The EUES function provides technical support for VITA Program computers at its Computer
Depot. Established in August 2003, the Computer Depot is a centralized location that receives
computers for the VITA Program, prepares them for use by loading the operating system and tax
preparation software, ships them to volunteers, and stores them when they are not in use
(e.g., not assigned to volunteers). In addition, the EUES function maintains computer inventory
records on the ITAMS. The ITAMS was developed in March 2001 and is used to control all IRS
computer assets, including VITA Program computers. The ITAMS is the IRS’ authoritative
record for asset control, where each piece of equipment is tracked from procurement to disposal.
As of February 2006, there were approximately 15,000 computers in active VITA Program
inventory, with approximately 11,000 computers assigned to volunteers and 4,000 in storage at
the Computer Depot.



7
    Territory offices are SPEC function field offices.
                                                                                           Page 2
                         Accountability Over Volunteer Income Tax Assistance
                            Program Computers Continues to Be a Problem



This review was performed at the MITS organization’s offices in New Carrollton, Maryland; the
Wage and Investment Division SPEC function Headquarters office in Atlanta, Georgia; and the
EUES function Computer Depot located at the Brookhaven Campus8 in Holtsville, New York,
during the period December 2005 through July 2006. During this review, much of the
information provided to us to support the accounting for VITA Program computers was
inconsistent and changed throughout the course of the audit. These matters are discussed in
further detail in the Results of Review section of the report. The audit was conducted in
accordance with Government Auditing Standards. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




8
 The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 3
                          Accountability Over Volunteer Income Tax Assistance
                             Program Computers Continues to Be a Problem




                                      Results of Review

Procedures Are Not Adequate to Ensure Volunteer Income Tax
Assistance Program Computers Are Properly Controlled
Taxpayer data are at risk from unauthorized disclosure or misuse as a result of the inability to
accurately account for VITA Program computers used in the preparation and transmission of
electronic tax returns. The issues detailed below are similar to those identified and reported in
our prior review. These issues include:
•   Although the IRS was able to account for 191 (97 percent) of 197 of the computers sampled,9
    repeated attempts were necessary to locate some computers. It took between 2 months and
    3 months to locate 52 computers and up to 5 months to locate 9 computers. Three of the
    six computers not located were assigned to volunteers; the remaining three were listed with
    incorrect information on the STARS and ITAMS or as unassigned and in inventory at the
    Computer Depot. Repeated attempts were necessary to find some of the computers tested
    because the IRS maintains two separate inventory systems (the STARS and the ITAMS) and
    their inventory records did not agree. There are no specific guidelines outlining the
    responsibilities of the SPEC and EUES functions regarding the accountability of VITA
    Program computers.
•   During the period October 2003 to February 2006, MITS organization employees changed
    the ITAMS name data field for 7,150 computers10 to reflect these computers as being in the
    VITA Program. IRS management stated that the ITAMS name data field was changed in an
    attempt to clean up inventory.
•   The IRS did not ensure required procedures were followed when disposing of computers.
    The Reports of Survey (Form 1933)11 used to document the disposal of assets did not contain
    proper authorizations, details of the specific actions taken to locate the computers prior to
    removing them as lost, or the required statement on whether taxpayer data were at risk.
We will be referring information relative to the above ITAMS transactions to our Office of
Investigations. The IRS was also unable to provide documentation to demonstrate that the VITA
Program computers have been consistently included in IRS’ annual certification of its computer

9
  The total of 197 computers represents both a judgmental sample (59) and statistical sample (138) selected to
determine if the computers could be physically located.
10
   These computers were listed on the ITAMS under the category of retired asset and are not reflected in active
VITA Program computer inventory totals.
11
   See Appendix IV.
                                                                                                             Page 4
                     Accountability Over Volunteer Income Tax Assistance
                        Program Computers Continues to Be a Problem



inventory. In addition, VITA Program computers were not included in the Government
Accountability Office (GAO) Fiscal Years 2003 through 2005 annual audits of the IRS’ financial
statements.
The majority of the control breakdowns occurred in the MITS organization. The IRS stated it
plans to take actions to address concerns raised during our review, including certifying the VITA
Program computer inventory in Fiscal Year 2006, developing guidelines outlining
responsibilities of the SPEC and EUES functions, and monitoring and limiting the ability to
change the ITAMS name data field.

Two separate inventory systems are used to account for VITA Program
computers
The IRS maintains two inventory systems to account for VITA Program computers because the
ITAMS structure is limited and cannot capture VITA Program partner, site, or volunteer specific
information. This information is captured on the STARS, and the SPEC function needs this
information to appropriately account for VITA Program computers.
In an effort to ensure the STARS and ITAMS agree, the IRS uses a two-way matching process.
Update extracts are generated from the STARS when inventory records are changed. These
update extracts are provided to the MITS organization to be used to update the ITAMS.
Similarly, when inventory records on the ITAMS are changed, ITAMS updates are provided to
the SPEC function to be used to update the STARS.
However, the MITS organization was not using the                 The two-way matching
                                                                process was not used to
information extracted from the STARS to update the           ensure the STARS and ITAMS
ITAMS because the information was considered                  computer inventories were in
unreliable. In addition, the ITAMS update extracts were                agreement.
incomplete and the information was not current, creating
update delays to the STARS of up to 6 weeks. As a result, inventory records reflected in the
STARS and ITAMS were not in agreement.
We selected a judgmental sample of 50 computers physically located at the Computer Depot to
assess the accuracy of the STARS and ITAMS for these computers.
•   For 8 (16 percent) of the 50 computers, the STARS did not show them correctly as being
    located at the Computer Depot.
•   For 3 (6 percent) of the 50 computers, the ITAMS did not show them correctly as being
    located at the Computer Depot.
Based on the results of our sample, we matched extracts from the STARS to the ITAMS. There
were a total of 16,559 unique VITA Program computers listed on these inventory systems. The
ITAMS extract dated December 12, 2005, showed 15,690 VITA Program computers while the
STARS extract dated December 9, 2005, showed 14,531 computers assigned to the VITA

                                                                                          Page 5
                             Accountability Over Volunteer Income Tax Assistance
                                Program Computers Continues to Be a Problem



Program. There were 13,662 computers on both inventory systems. However, 2,028 computers
were on the ITAMS and not on the STARS, and 869 computers were on the STARS and not on
the ITAMS.
Although there are two systems controlling the VITA Program computers, there is no clear
separation of responsibilities and duties to ensure the computers are properly accounted for. For
example, the Computer Depot has taken responsibility for updating both the STARS and the
ITAMS for computers used by AARP volunteers. The computers loaned to the AARP account
for approximately two-thirds of the computers used by volunteers. The updating of both the
STARS and ITAMS by one function raises concerns because there is not a clear separation of
duties when the Computer Depot both receives and disposes of computers as well as records
these transactions.
Key duties and responsibilities should be divided or segregated to reduce the risk of error or
fraud. This should include separation of responsibility for authorizing transactions; processing,
recording, and reviewing the transactions; and handling any related assets.

Ineffective internal controls allowed computers to be reassigned on the ITAMS
without proper authorization or validation
We reported concerns in August 2002 that VITA Program computers could not be located and
taxpayer data may be at risk. This review identified the same problems. Key controls designed
by the IRS to assist in controlling VITA Program computers and protecting taxpayer information
are not consistently followed. Documentation was not provided to support the consistent
inclusion of VITA Program computers in the annual certifications of the IRS’ computer
inventory, and MITS organization employees were able to change ITAMS records without
proper authorization or validation.
In August 2002, we also reported the SPEC function could not provide documentation that VITA
Program computers were included in the Fiscal Year 2001 Annual Certification. The IRS was
again unable to provide documentation to demonstrate that the VITA Program computers have
been consistently included in IRS’s annual certification of its computer inventory. Specifically,
IRS management initially stated the VITA Program computers were not included in the required
annual certification that (1) verifies the existence of the assets, (2) verifies all assets have an
associated inventory record on the ITAMS, (3) certifies the correctness of data contained in the
critical fields on the ITAMS,12 (4) corrects data inaccuracies in the ITAMS critical to control of
assets, and (5) ensures all asset inventory transactions are updated in the ITAMS. Verifying the
physical existence of the computer is of utmost importance. IRS guidelines also require that a
certification letter be prepared to include a statement of certification, completeness, and
accuracy.


12
     Critical fields include assignment, barcode, building location, and user name.
                                                                                            Page 6
                       Accountability Over Volunteer Income Tax Assistance
                          Program Computers Continues to Be a Problem



However, after we completed audit testing and discussed the results with IRS officials, they
provided a memorandum indicating the VITA Program computers located at the Computer
Depot (where the majority of VITA Program computers are located) were included in the
Fiscal Year 2004 Annual Certification. MITS organization management believes a certification
of the Computer Depot inventory was also completed in Fiscal Year 2005, but they could not
provide a copy of the required certification memorandum.
Furthermore, during the period October 2003 to February 2006, MITS organization employees
changed the ITAMS name data field for 7,150 computers to show them as assigned to the VITA
Program. IRS management stated these records were changed to clean up the inventory of
computers that were old, were obsolete, or could not be located. Although the ITAMS name
data field was changed, the physical location field was not changed for 5,157 (72 percent) of the
7,150 computers, confirming these computers had not been physically transferred to the
Computer Depot. The disposition of these 7,150 computers as recorded on the ITAMS is shown
in Figure 1.
                          Figure 1: Disposition of 7,150 Computers

                                  Disposition of Retired Assets
                     Disposition Type                            Volume   Percent of Total

     Abandoned/Destroyed                                           54           .75%
     Transferred Out                                               80          1.12%
     Transferred to Schools/Non-Profits                          5,220          73%
     Salvaged and/or Scrapped                                      634         8.87%
     Lost Inventory with No Criminal
     Activity                                                    1,118       15.64%
     Stolen                                                         44          .62%
     Totals:                                                     7,150      100.00%
        Source: TIGTA analysis of ITAMS retired asset records.

We have concerns with the changes to the system name data field because the changes
reflect transfers that may not have occurred. The ability of IRS employees to circumvent
internal controls by changing ITAMS records raises serious concerns about the validity of
the transactions in the ITAMS and the physical accounting for these computers. It is a
strong indication that the internal control environment is ineffective.
Changing the name data field in the ITAMS to show these were VITA Program computers also
resulted in computers being excluded from the extract of IRS computers provided to the GAO to

                                                                                             Page 7
                        Accountability Over Volunteer Income Tax Assistance
                           Program Computers Continues to Be a Problem



select its sample of computers to perform the yearly verification for its financial audit. The IRS
and GAO agreed not to include the VITA Program computers in the GAO Fiscal Year 2003
through 2005 annual audits of the IRS’ financial statements. According to the IRS, it has
achieved an accuracy rate of over 95 percent in each of the past 3 years, enabling it to pass the
last GAO financial audit. This high accuracy rate may have resulted from not including VITA
Program computers in the GAO’s statistical sample for its financial audit.13
Transactions such as those to record the transfer and disposition of assets as well as other
significant events should be authorized and executed only by persons acting within the scope of
their authority. This is the principal means of assuring that only valid transactions to exchange,
transfer, use, or commit resources and other events are initiated or entered in to. In addition,
documentation should be readily available for examination, and all documentation and records
should be properly managed and maintained.

Required procedures were not followed when disposing of computers
A test of 1,041 of the 1,118 ITAMS inventory records with a disposition type of lost inventory
with no criminal activity showed MITS organization
employees did not properly follow procedures when              A total of 1,041 computers
disposing of these computers. As a result, there is no         were disposed of without
assurance that proper actions were taken to locate the       following proper procedures.
computers and assess the risk the lost computers may have
on taxpayer data.
The IRS uses Form 1933 to guide employees when they are trying to locate computers and
protect taxpayer information. This process requires users to document on the Form 1933:
     (1) Results of a physical search for the computer based on location and contact information
         reflected in the ITAMS.
     (2) Results of a telephone contact with the last person responsible for possession of the
         computer.
     (3) Results of an email contact with the responsible person.
     (4) Results of a contact with the manager of the responsible person.
     (5) An explanation of whether taxpayer data were at risk.
Thirty-three (3 percent) of the 1,041 ITAMS inventory records were not listed on a Form 1933.
The remaining 1,008 ITAMS inventory records were listed on 52 Forms 1933. However,
31 (60 percent) of the 52 Forms 1933 did not contain the required authorization from the


13
   The IRS stated it had an agreement with the GAO to exclude VITA Program computers from the GAO’s annual
financial audit.
                                                                                                    Page 8
                      Accountability Over Volunteer Income Tax Assistance
                         Program Computers Continues to Be a Problem



Agency-Wide Shared Services (AWSS) organization approving official. The final disposition of
computers is processed through the ITAMS and authorized by an AWSS organization approving
official. This process is in place to ensure duties are separated.
Although justifications for writing off the computers were included on 50 (96 percent) of
the 52 Forms 1933, none of the justifications detailed the actions taken to try to locate the
computers prior to writing them off as lost, as required. In addition, we question the validity of
the justifications that detail computers as being part of the VITA Program because the physical
location field was not changed for 5,157 of the 7,150 (72 percent) computers, confirming these
computers had not been physically transferred to the VITA Program.
Examples of justifications included:
       − The equipment listed was not located in the last inventory and is presumed to
         have been previously excessed, lost or to never have been received. . . . To
         the best of our knowledge there is no taxpayer data at risk.
       − Equipment has not been located, validated, or inventoried for the past two (2)
         certification periods.
       − These desktops were assigned to the . . . SPEC Office for VITA. These
         desktops were given to VITA partners including AARP and NAVY. These
         desktops will not be returned to the IRS, and therefore are being surveyed out
         from ITAMS.
       − This MITS Equipment was assigned to the . . . MITS office. During the
         FY [Fiscal Year] 2005 inventory these items could not be located. After
         extensive searches by employees of both MITS these items can not be located.
         The equipment on this Report of Survey is for the following reason:
           1. The asset may have been disposed of on a previous report of survey, but
              was not removed from the data base.
           2. The asset may have been parted out and never recorded on a previous
              report.
           3. The asset may have failed and been replace[sic] without appropriate
              record keeping.
           4. The asset may have been improperly disposed of with no record kept.
In addition, the required explanation of whether taxpayer data were at risk was not included on
49 (94 percent) of the 52 Forms 1933 provided. For the remaining three Forms 1933, the
following statement was made: “To the best of our knowledge, there is no taxpayer data at risk.”



                                                                                             Page 9
                            Accountability Over Volunteer Income Tax Assistance
                               Program Computers Continues to Be a Problem



Furthermore, Forms 1933 included in our sample raise additional concerns as to the validity of
the actions and information provided to support the removal of computers from the ITAMS
inventory. For example:
•      One Form 1933 was dated April 2006, 1 month later than the ITAMS extract of disposed
       assets generated in March 2006. This particular Form 1933 listed 43 computers from our
       sample. However, these 43 computers were shown in the ITAMS as retired from inventory
       records in June 2005. Subsequent to our bringing this to MITS organization management’s
       attention, a Form 1933 dated February 2006 was provided for these same computers.
•      One Form 1933 was provided May 2006 for six computers. Subsequently, another
       Form 1933 dated July 2006 was provided for these same computers. Although the computers
       listed on the Forms matched, there were different approving officials on each Form 1933.
After we presented the audit results to IRS management, additional information was provided to
support the disposal of the 1,041 computers. However, 1 Form 1933, which included
276 computers, contained information that conflicted with that we had been advised of earlier.
We had been advised that the 276 computers included in our sample and listed on the
Forms 1933 had been disposed of because they were lost. This additional Form 1933 stated
VITA Program computers were donated. Further, an IRS representative stated:
           This equipment was assigned to . . . SPEC for the . . . (VITA) project. As the
           equipment was somewhat old and obsolete, once it was issued to the VITA
           partners, it was determined that the equipment would not be returned into the IRS
           offices for excess. When equipment was issued from MITS, there was no taxpayer
           data on the CPUs [central processing units], only the operating system and any . .
           . software loaded by either MITS or SPEC. Once it was determined that the
           equipment would not be returned to the IRS, the Form 1933 was prepared by
           MITS to show that the equipment had been “donated” to the VITA Project, and a
           copy of the Form 1933 would have been turned over to AWSS. TIGTA would not
           have been involved in this, as the equipment was not missing but rather donated.
When we questioned whether the computers were in fact donated, we were informed older
computers used by the IRS that were ready for disposal were turned over to the VITA Program
and given to its VITA Program partners. The IRS could not provide documentation to support
this claim. If these computers were in fact donated, this may be in violation of the Federal
Property and Administrative Services Act of 1949,14 which prohibits the donating of computers
to volunteers.
During the course of this review, we made repeated attempts to obtain documentation to support
actions taken to dispose of computers. Although some documentation was ultimately provided,


14
     Pub. L. No. 81-152, 63 Stat. 377 (codified as amended in scattered sections of 40 U.S.C and 41 U.S.C.).
                                                                                                               Page 10
                      Accountability Over Volunteer Income Tax Assistance
                         Program Computers Continues to Be a Problem



it was inadequate and we were unable to substantiate the reliability of this information. There is
no assurance that taxpayer data are not at risk if these computers were in IRS operations or in the
VITA Program. No documentation was provided to support the removal of taxpayer information
from the computers. Information on tax forms, including names, Social Security Numbers,
income, employment and bank account details, is regarded as a prime target for identity thieves.

Recommendations
The Chief Information Officer and the Commissioner, Wage and Investment Division, should:
Recommendation 1: Perform a physical inventory and reconciliation of computers listed on
the STARS to computers listed on the ITAMS to ensure all computers are accounted for and the
systems’ records are accurate. Additionally, ensure VITA Program computers are included in
the required annual certification of the ITAMS.
       Management’s Response: The IRS agreed with this recommendation. The SPEC
       function will perform a physical inventory and reconciliation of computers on the
       STARS. The EUES function will ensure VITA Program computers are included in the
       required annual certification of the ITAMS. In accordance with the annual certification
       plan, the Computer Depot will conduct a final verification of assets and certify the
       accuracy of the inventory records and reconciliation as directed by the Asset
       Management Program Office.
Recommendation 2: Integrate the ITAMS and STARS to link the information between the
two and ensure all VITA Program computers are properly and efficiently controlled.
       Management’s Response: The IRS agreed with this recommendation and will
       modify the ITAMS and STARS to enable linking with each other, to improve the control
       over computers used in the VITA Program.
Recommendation 3: Develop guidelines outlining the responsibilities of the EUES and
SPEC functions pertaining to the control and accountability of VITA Program computers.
       Management’s Response: The IRS agreed with this recommendation. On
       May 19, 2006, the EUES and SPEC functions signed a Memorandum of Understanding
       outlining the roles and responsibilities for the SPEC function, the Computer Depot, and
       the loan of equipment to VITA Program partners.
Recommendation 4: Ensure proper authorization and physical verification are obtained prior
to reassigning computers on the ITAMS to VITA Program inventory records and ensure required
procedures are followed when disposing of computers within the ITAMS inventory records.
       Management’s Response: The IRS agreed with this recommendation and will
       reinforce guidelines already in place with its employees responsible for inventory to
       ensure they follow the required procedures for reassigning or disposing of VITA Program

                                                                                           Page 11
              Accountability Over Volunteer Income Tax Assistance
                 Program Computers Continues to Be a Problem



computers. Accountability and review of effectiveness will be ensured through Quality
Assurance reviews.




                                                                               Page 12
                         Accountability Over Volunteer Income Tax Assistance
                            Program Computers Continues to Be a Problem



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess whether computers used in the VITA Program
are properly accounted for and controlled. To accomplish this objective, we:
I.      Determined whether the SPEC function properly controls and accounts for VITA
        Program computers.
        A. Interviewed SPEC function management to determine current and planned inventory
           control procedures.
        B. Obtained and reviewed SPEC function guidelines to determine whether the
           procedures for controlling and accounting for VITA Program computers were
           adequate.
        C. Using a statistically valid sample, determined whether the computers assigned to the
           Territory offices1 were accurately controlled and accounted for on the STARS and
           ITAMS. A statistically valid sample of 138 computers was selected during fieldwork
           to enable a projection to the entire population. The sample included computers that
           were in stock at the Computer Depot, in stock in a SPEC Territory office, and in use
           in a VITA Program site. The sample of 138 computers was selected from a STARS
           extract dated January 25, 2006, with a population of 16,053 computers. The sample
           size was based on an error rate of 10 percent, a confidence level of 1.96, and a
           precision rate of +5 percent.2
             1. For computers listed as “in use,” determined who the computers were assigned to,
                contacted the individuals to determine whether they had the computer, and, if so,
                obtained the barcode and serial number of the computer in their possession. We
                matched this information to our sample of inventory records to confirm the
                accuracy.
             2. For computers listed as “in stock,” we sent an email to the specific Territory
                offices where the computers were assigned. We requested an email response
                detailing the barcodes and serial numbers of all computers, confirmed the
                information, and matched the remaining computers to inventory records to assess
                the accuracy.


1
 Territory offices are SPEC function field offices.
2
 We did not project to the total population the number of computers that were not accounted for because the
accountability rate fell within the margin of error of +5 percent.
                                                                                                         Page 13
                     Accountability Over Volunteer Income Tax Assistance
                        Program Computers Continues to Be a Problem



       D. Determined the effect on both the IRS and taxpayers.
II.    Determined whether the Computer Depot properly controls and accounts for VITA
       Program computers.
       A. Interviewed EUES function management to determine current and planned inventory
          control procedures.
       B. Obtained and reviewed the Computer Depot’s guidelines to determine whether
          procedures for controlling and accounting for VITA computers were adequate.
       C. Selected a judgmental sample of 109 computers actually located at the Computer
          Depot and determined whether the computers were correctly controlled on the
          ITAMS and the STARS. We selected a judgmental sample of 59 VITA Program
          computers from the STARS by using a random number of 55 from a population of
          computers that were in stock at the Computer Depot and had barcodes with the last
          two digits of 55. We placed the barcodes in ascending order and then selected every
          other computer beginning with the first computer. Additionally, we judgmentally
          selected 50 computers that were on hand at the Computer Depot. We used a
          judgmental sample to determine whether further testing would be necessary.
       D. Using the statistically valid sample in Step I. C., determined whether the computers
          assigned to the Computer Depot were controlled and accounted for.
          1. For computers listed as “in use,” reviewed SPEC function information to
             determine who was assigned the computer, contacted these individuals to
             determine whether they had a computer, and obtained the barcode and serial
             number for the computer in their possession. We matched this information to
             inventory records to confirm the accuracy.
          2. For computers listed as “in stock,” visited the Computer Depot, physically
             confirmed possession of the computers, and, based on the results, confirmed the
             accuracy of the inventory records.
       E. Determined the effect on both the IRS and taxpayers.
III.   Assessed the accuracy and reliability of data in the STARS and the ITAMS.
       A. Requested an extract from the STARS and the ITAMS detailing computers in the
          possession of the VITA Program.
       B. Analyzed the data included in the two inventory systems to identify anomalies and
          determined whether similar data included in the two inventory systems were
          consistent, accurate, and complete. Based on analysis of the data in the two inventory
          systems, we determined the inventory records in both systems were not in agreement.


                                                                                        Page 14
                   Accountability Over Volunteer Income Tax Assistance
                      Program Computers Continues to Be a Problem



IV.   Assessed whether procedures were followed when disposing of VITA Program assets.
      A. Using a judgmental sample, determined whether MITS organization employees
         followed procedures when disposing of VITA Program computers. During fieldwork,
         we selected a judgmental sample of 1,041 computers that were recorded as disposed
         of and considered lost. The sample was selected from a population of
         7,150 computers recorded on the ITAMS. We used a judgmental sample because we
         wanted to test whether the Territory offices with the highest number of computers
         disposed of had followed procedures.
      B. We determined the effect on both the IRS and taxpayers.




                                                                                  Page 15
                    Accountability Over Volunteer Income Tax Assistance
                       Program Computers Continues to Be a Problem



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Russell P. Martin, Manager
Lena Dietles, Lead Auditor
Pamela DeSimone, Senior Auditor
Jean Bell, Auditor
Roberta Fuller, Auditor




                                                                                   Page 16
                    Accountability Over Volunteer Income Tax Assistance
                       Program Computers Continues to Be a Problem



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Associate Chief Information Officer, End User Equipment and Services OS:CIO:EU
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 17
Accountability Over Volunteer Income Tax Assistance
   Program Computers Continues to Be a Problem



                                            Appendix IV

        Report of Survey




                                                  Page 18
      Accountability Over Volunteer Income Tax Assistance
         Program Computers Continues to Be a Problem



                                                  Appendix V

Management’s Response to the Draft Report




                                                        Page 19
Accountability Over Volunteer Income Tax Assistance
   Program Computers Continues to Be a Problem




                                                  Page 20
Accountability Over Volunteer Income Tax Assistance
   Program Computers Continues to Be a Problem




                                                  Page 21
Accountability Over Volunteer Income Tax Assistance
   Program Computers Continues to Be a Problem




                                                  Page 22
Accountability Over Volunteer Income Tax Assistance
   Program Computers Continues to Be a Problem




                                                  Page 23
